August 25, 2010

GLORIA E. TYSON
DISTRICT MANAGER, CHICAGO DISTRICT

SUBJECT: Audit Report – Facility Optimization: Chicago District
         (Report Number DA-AR-10-009)

This report presents the results of our audit of facility optimization in the Chicago District
(Project Number 09YG048DA000). The U.S. Postal Service Office of Inspector General
(OIG) initiated this audit due to the district’s high-risk ranking identified through our Real
Estate Risk Model (RERM). Our objective was to identify opportunities for the Chicago
District to optimize existing real estate. See Appendix A for additional information about
this audit.

The Chicago District uses 79 facilities with over 2.3 million interior square feet (SF).
While the district employs these facilities, it has experienced a significant reduction in
workload over recent years. From fiscal year (FYs) 2005 to 2009, mail volume has
dropped 30 percent. Customer traffic has also declined in post office lobbies as retail
transactions shift to alternate access locations. From FYs 2005 to 2009, alternate
access revenue in the Chicago District has increased by 51 percent. This reduction in
workload provides an opportunity to reevaluate space needs and identify potential
excess space.

Conclusion

The Chicago District has 740,529 square feet in excess of what their workload suggests
they need. A breakdown of excess space identified at sites in the district indicated that
82 percent of the excess space was associated with stations and carrier annexes.
Postal Service has the option to optimize excess real property through:

      Disposals – selling property.
      Outleasing – leasing owned property.
      Subleasing/Assignment – reassigning leased property.
      Development – investing in real estate projects.

With two major efforts underway, the Postal Service has begun taking action to optimize
existing space. Specifically the Chicago District plans to dispose of 200,600 SF of this
excess space through approved optimization projects, with another 14,000 SF planned
Facility Optimization: Chicago District                                                       DA-AR-10-009



for evaluation in calendar year 2010. Although it has made progress, the Postal Service
can do more to dispose of excess interior space in a timelier manner.

Postal Service policy1 requires installation and district heads to annually review and
report excess property. The opportunity to optimize excess interior space in the Chicago
District exists because:

      Postal Service policy requires installation heads to report excess space, but does
       not provide the necessary guidance to effectively accomplish this task.

      The excess space reporting system does not track metrics such as dates
       identified or space conditions to allow for the prioritization of disposal actions.

We estimate that if the Chicago District initiates disposal2 action for the excess space
we identified, there is a potential opportunity to realize $23,517,019 over typical and
remaining lease terms. We consider this amount to be funds put to better use.3 See
Appendix B for our detailed analysis of this topic and Appendix C for our calculation of
monetary impact.

We recommend the district manager, Chicago District, in coordination with the manager,
Great Lakes Facility Service Office:

1. Ensure installation heads have the proper guidance for identifying and reporting
   excess space.

2. Include additional metrics, such as dates and space conditions, to track, monitor,
   and report excess space within the Chicago District and initiate disposal action for
   excess space identified.




 1
   Per the Administrative Support Manual (ASM) 13, Section 517.11, installation heads must review the inventory of
Postal Service-owned property at least annually to determine whether there are any properties the Postal Service no
longer needs and report that excess property through the Facilities Database. Section 517.34 states that installation
heads, district managers, and vice presidents of Area Operations should report all excess space in Postal
Service-owned or leased buildings.
2
   Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
3
   Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess square feet that are part of an approved node study.




                                                          2
Facility Optimization: Chicago District                                DA-AR-10-009



Management’s Comments

Management agreed with both of our recommendations and stated corrective actions to
address the recommendations will be in place by the end of quarter two, fiscal year
2011. While management agreed to develop a more accurate process and additional
metrics to better manage excess space, management did not agree with the amount of
excess space or the potential monetary impact reported. Specifically, they disagreed
with the methodology used to calculate excess space, the cost factors used to value the
excess space and the calculation of the monetary impact reported.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors. The audit treats every square
       foot as usable and leasable.

    2. Existing functions not included in standard designs.

    3. Inefficiencies in current building layouts and support space due to code
       requirements.

    4. Historic property.

    5. Parking and dock space requirements.

    6. Large inflexible retail lobbies.

In reference to the cost factors used in our calculations, management disagreed with
the:

       Amount of facilities within the district.

       Level of approved optimization studies reported.

       Square foot value assigned to excess space.

       Build out cost factors.

As such, management believes the accurate way to calculate monetary impact is by
multiplying usable excess space by sublease value less conversion cost. This
calculated outcome can then be adjusted for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior square feet, which represents 16 percent


                                                3
Facility Optimization: Chicago District                                    DA-AR-10-009



of buildings and 76 percent of interior square feet. This allows Postal Service to capture
the largest opportunities for excess space that is usable. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the audit report.
With respect to the methodology used to calculate excess space, we did not determine
whether the excess space identified was usable, in part because Postal Service
systems do not identify usable areas. We agree realty management policies and
systems need to be updated to define usable areas. According to commercial realty
standards,4 usable areas are generally measured from "paint to paint" inside the
permanent walls to the middle of partitions. No deductions are made for columns and
projections necessary to the building. Our calculations reflect these standards.

As it relates to the usability of basements, we note that Postal Service headquarters and
many federal agency buildings utilize basement space. We did not include allowances
for existing functions, building layout inefficiencies, and inflexible spaces because the
Postal Service’s current space standards did not specify these allowances. Our audit
focused on interior excess space and thus excess parking and dock space was outside
the scope of the audit.

Postal Service management also conveyed that we did not consider the historic nature
of buildings and that they are possibly restricted in making changes to these buildings.
While we agree that there are properties held by the Postal Service that are historic in
nature, we do not feel this has a large impact in the presentation of our results. The
number of eligible historic buildings listed in the Postal Service’s systems account for
less than one percent of their properties. Also, while the Postal Service is required to
consult with historical organizations, they are not bound by those consultations or
decisions.

For clarification, the discrepancy in the number of facilities highlighted by Postal Service
is the result of limiting the scope of our audit to buildings classified as post offices in the
facilities database. We also included in our review processing plants located near
selected sites. The number of facilities conveyed by Postal Service includes all facility
classifications or types within the district. The cost factors used in our calculations
represent district averages recorded in Postal Service facility databases as of October
2009.

Postal Service management asserted that the audit team did not consider all the node
studies from FY 2009. We considered all the “approved” node studies, rather than
“completed” node studies. An “approved” node study represents concurrence by area
office management and therefore is an active consolidation effort. A “completed” node

4
    www.boma.org


                                               4
Facility Optimization: Chicago District                                    DA-AR-10-009



study is merely a study of consolidation options in which the area office management
has yet to agree to a specific course of action.

We requested specific “build-out” costs from the Postal Service for the Chicago District.
The Postal Service responded that they do not have a methodology of determining
these costs at a national, area, or district level. As such, to determine build-out cost we
used the average build-out costs for the area as presented in their node studies. We
note that build out costs are negotiable and lessees, at times, absorb the cost of
conversion. We built in several tolerances relating to the size of excess space at sites
reviewed and considered the marketability of properties within the districts. We
recognized realty market conditions and discounted our excess space calculations by
the national commercial vacancy rate of 14 percent. As such, we consider our
presentation of monetary impact as fair and conservative.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 square feet. We believe that
once management modernizes its realty management systems to have greater visibility
of excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-4546.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: Steven J. Forte
    Tom A. Samra
    Jo Ann Feindt
    Sharad C. Shrestha
    Corporate Audit Response Management


                                               5
Facility Optimization: Chicago District                                      DA-AR-10-009



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Chicago District leases or owns 79 facilities with over 2.3 million interior SF to
process the mail. The consolidation or closure of facilities is a widely discussed topic
due to declining mail volume and the resulting financial condition of the Postal Service.
In response, Postal Service Facilities and Retail Management organizations have
implemented initiatives to optimize space, namely, initiation of the Facility Optimization
Program and the Station and Branch Optimization Consolidation (SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Great Lakes Area has 10 approved optimization studies, with one in the Chicago
District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. At the district level, as of
January 29, 2010, one station was under consideration for closure.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model (RERM) to identify and prioritize emerging facility risk. The risk
model measures facility performance results by district for the following nine metrics:

                                          Table 1. Risk Metrics

                                   RERM METRICS
Ratio of Mail Volume to Interior Square    Excess Postal Service Identified
Footage                                    Interior Space
Ratio Revenue to Interior Square Footage   Excess Land
Ratio of Total Expense to Interior Square  Facility Condition
Footage
Ratio of Employees to Interior Square      Density, Geographic Location
Footage
Ratio of Retail Revenue to Total Expense

The Chicago District ranked as most at risk of all 74 districts as of Quarter 2, FY 2010.




                                                       6
                                            Restricted Information
Facility Optimization: Chicago District                                                       DA-AR-10-009




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Chicago District to
optimize existing real estate. We visited 32 of 79 facilities in the Chicago District, which
represents 80 percent of OIG-calculated total excess space. The scope of the audit
included main post offices, carrier annexes, stations, branches, and mail processing
facilities. To accomplish our objective we visited selected facilities, conducted interviews,
and examined other relevant materials.

We used Postal Service criteria5 for new space projects to establish space requirements
for post office facilities in the Chicago District. Our excess space metric subtracts the
earned facility size from the actual facility size6 to calculate the excess space. To
determine the earned facility size, we used the Space Requirements Model matrix7. The
matrix computes earned space based on the delivery and retail workload conducted at
each site. We compared workload data from Postal Service databases8 to the number of
carrier routes, the number of rented post office box sections, and peak window usage.
Our method differs from existing Postal Service initiatives9 because it focuses on the total
facility size, not specific operations. We designed our metric primarily for customer
service facilities. We obtained the measurements for excess space at processing plants
from respective industrial engineers.

Facilities management suggested we use detailed facility information available in
recently conducted space surveys to calculate our excess space. This approach would
provide greater insight into the type and location of space designated as excess. While
this method has merit, we were not able to use this approach because the space
surveys were conducted only at buildings with 10,000 or more net interior square feet.
These buildings — while containing the majority of the Postal Service interior space —
only accounted for 16 percent of the total number of facilities nationally. Consequently,
we opted to use a global approach and assess excess space at the total facility level.

We modified our metric as follows to address obstacles in applying it to existing real
estate resources.

         We established thresholds to remove post offices with less than 100 SF of
          excess space and carrier annexes with less than 300 SF of excess space.

         We used Non-Flat Sequencing System building standards for customer service
          sites.


5
 We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations.
6
    Interior square footage obtained from the electronic Facilities Management System (eFMS).
7
  . In support of newly established criteria, the Headquarters Facility Group, Planning and Approval, designed matrices
to assist with space requirements for planned facilities. We used the Space Requirements Matrix for Non-Flat
Sequencing System (FSS) offices.
8
   WebBATS Monthly Summary Data for issued P.O. Box information, Intelligent Mail and Address Quality (IMAQ)
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
9
   SBOC and Facilities Optimization Program.
                                                           7
Facility Optimization: Chicago District                                  DA-AR-10-009




       We provided additional support space by calculating retail and delivery space
        requirements separately.

       We provided additional delivery space for facilities with more than 51 routes. The
        additional routes received the space designated for a separate total facility
        instead of following the Postal Service’s practice of adding an additional 123 SF
        per route.

       At facilities with unique functions, we either subtracted the space dedicated to
        that function from our metric or relied on Postal Service expertise to provide us
        with an accurate account of the building’s excess space.

       Furthermore, we reduced our total monetary impact by 14 percent to address the
        difficulty in achieving a 100 percent realization of optimization efforts. The
        reduction correlates directly to the national vacancy rate for commercial real
        estate.

We conducted this performance audit from September 2009 through August 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on March 26, 2010 and July
15, 2010, and included their comments where appropriate.

We assessed the reliability of facility-related data by verifying the accuracy of computer-
generated information by making observations during facility tours and interviewing
agency officials knowledgeable about the data. We determined the data used was
sufficiently reliable for the purposes of this report.




                                             8
  Facility Optimization: Chicago District                                       DA-AR-10-009




  PRIOR AUDIT COVERAGE

  The following audit reports are relevant to the Postal Service’s facility infrastructure.

                                                 Final
                                   Report
      Report Title                              Report                   Report Results
                                   Number
                                                  Date
Restructuring the U.S.         GAO-09-937SP    7/28/2009   The Government Accountability Office
Postal Service to Achieve                                  added the U.S. Postal Service’s financial
Sustainable Financial                                      condition to the list of high-risk areas
Viability                                                  needing attention by Congress and the
                                                           executive branch to achieve broad-based
                                                           transformation. It recognized the need to
                                                           reduce the facility infrastructure. There is no
                                                           Postal Service response in the report.
Federal Real Property: An       GAO-09-801T    7/15/2009   Federal agencies have taken some positive
Update on High-Risk                                        steps to address real property issues but
Issues                                                     some of the core problems that led to the
                                                           designation of this area as “high-risk”
                                                           continue to persist. There is no Postal
                                                           Service response in the report.
Network Rightsizing             GAO-09-674T    5/20/2009   The Postal Service will require actions in a
Needed to Help Keep                                        number of areas, such as rightsizing its retail
USPS Financially Viable                                    and mail processing networks by
                                                           consolidating operations and closing
                                                           unnecessary facilities. The Postal Service
                                                           generally agreed with the accuracy of the
                                                           statements and provided technical
                                                           comments, which we incorporated.
Use of Existing Postal          SA-AR-08-007   3/21/2008   The Pacific, Great Lakes, New York Metro,
Owned Space – Capping                                      and Southeast Areas did not monitor or
                                                           actively track and report underutilized and
                                                           vacant space. Management agreed with the
                                                           recommendation.




                                                  9
Facility Optimization: Chicago District                                                        DA-AR-10-009




                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Chicago District

Based on facility space requirements,10 we calculated that the Chicago District
maintains 740,529 SF more than what is required for its current operational workload,
and this amount can be considered potential excess space. As depicted in Chart 1,
excess space was 32 percent of the total interior square footage.

                  Chart 1 – District Interior and Excess Space Comparison




Table 2 shows the breakdown of interior square footage and OIG-calculated excess for
the 79 facilities in the Chicago District. Stations (post offices) contributed 44 percent of
the excess space, while carrier annexes (38 percent), finance stations (12 percent),
plants (4 percent) and branches (2 percent) followed to a lesser degree.




10
   We used Postal Service criteria established in March of 2007 outlined in a letter issued by the senior vice president
of Operations. In support of this newly established criteria, the Headquarters Facility Group, Planning and Approval,
designed matrices to assist with the space requirements of planned facilities.
                                                          10
   Facility Optimization: Chicago District                                          DA-AR-10-009




                                Table 2. Excess Space by Facility Type

                                                                      OIG Excess      Interior 
                                  Facility  Percentage  Percentage 
            Facility Type                                               Square         Square 
                                Type Count  of Count     of Excess 
                                                                       Footage        Footage 
         Station                    35         44.30%        43.55%    322,493        722,810
         Carrier Annex               9         11.39%        38.45%    284,757        416,657
         Finance Station            29         36.71%        11.55%     85,512        128,359
         Plant                       1          1.27%         4.24%     31,381        987,295
         Branch                      5          6.33%         2.21%     16,386         50,789
         Totals                     79          100%           100%    740,529       2,305,910

   To highlight excess space in the Chicago District, Illustration 1 depicts two facilities with
   excess interior space. Chicago Loop Station is a Postal Service-leased facility with over
   65,000 square feet of excess space. The Harwood Heights Carrier Annex is an owned
   facility with over 17,000 square feet of excess space.


                              Illustration 1 – Examples of Excess Space

Loop Station                                              Harwood Heights Carrier Annex
Interior SF: 91,866                                       Interior SF: 28,485
Earned SF: 26,500                                         Earned SF: 11,000
OIG Excess SF: 65,366                                     OIG Excess SF: 17,485




   See Appendix D for detailed earned space information on each of the facilities visited
   during fieldwork.


                                                     11
Facility Optimization: Chicago District                                        DA-AR-10-009




Causes for Excess Interior Space

The opportunity to optimize excess interior space in the Chicago District exists because:

        Postal Service policy requires installation heads to report excess space, but does
         not provide the necessary guidance to effectively accomplish this task.

        Facility systems do not track metrics such as dates identified or space conditions
         to allow effective management of excess space.

Guidance Can Be Improved

A review of the Facility Database User Guide shows it does not provide sufficient
guidance for identifying excess space using the workload-driven space requirements.
For example, the facility database space survey asks installation heads to objectively
answer “Do you have any vacant space in your facility that is in leasable condition and
has access that does not compromise the security of the operation?” without providing
further guidance or referencing space standards. While we identified excess space at
63 of the 79 Postal Service facilities, no locations answered “yes” to the vacant leasable
space survey question. Further, our interviews revealed that Operations employees
were unaware of the method used to identify excess space at their facility.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service is experiencing considerable workload decline, which has resulted in
significant excess space. However, the electronic systems that manage facility space do
not collect or monitor metrics such as length of time space is underutilized or vacant or
its condition to efficiently prioritize disposal actions.

For comparison purposes, we benchmarked Postal Service facility practices against the
General Services Administration’s (GSA) realty management practices and found that
GSA “ages” it’s available space for tracking, monitoring, and decision-making. The
Postal Service does not have the ability to age excess space, as dates on entry are not
collected.

The GSA’s Public Buildings Service also manages its leased portfolio by focusing on
four primary areas: reducing vacancy, managing lease administration expenses,
managing customer requirements, and analyzing market trends.11 Similarly, owned
facilities are monitored and analyzed using performance metrics such as revenue, funds
from operations, operating costs, vacancy, net operating income, and return on equity.
The Postal Service facility management systems are not able to manage property in this
manner. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.


11
   State of the Portfolio FY 2008 at:
http://www.gsa.gov/Portal/gsa/ep/channelView.do?pageTypeId=8199&channelPage=%2Fep%2Fchannel%2FgsaOve
rview.jsp&channelId=-24880
                                                 12
Facility Optimization: Chicago District                                DA-AR-10-009



Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, it is not a reliable source for identifying how much excess space
is available in its plants. The Postal Service plans to measure plants and update the
facility database. To complete this task for our report, we requested industrial
engineers, working with local in-plant support, use blueprints to identify processing
equipment, staging areas, manual work areas, and excess space.

We estimate if the Chicago District initiates disposal actions, there is a potential
opportunity to realize $23,517,019 over typical and remaining lease terms. We consider
this amount funds that could be used more efficiently or put to better use. See Appendix
C for the monetary impact calculation and assumptions.




                                           13
Facility Optimization: Chicago District                                                                                                                                          DA-AR-10-009




                                                                       APPENDIX C: MONETARY IMPACTS
                                                                         FUNDS PUT TO BETTER USE
     Excess Interior Space Monetary Impacts
     Project year                                     0                    1               2                3                 4                     5                  6                  7               8
     Fiscal year                                   2010                 2011            2012             2013              2014                  2015             2016              2017               2018


     Facilities
     Owned** Sublease Value                ($19,047,436)        $11,372,983     $11,372,983     $11,372,983          $11,372,983       $11,372,983          $11,372,983    $11,372,983            $2,843,246
     Utility Savings                                                 $451,648        $460,681        $469,894          $479,292          $488,878             $498,655          $508,629           $127,157
     custodial savings                                               $177,814        $177,814        $177,814          $177,814          $177,814             $177,814          $177,814            $44,454
     Leases Expiring FY 2009***
     Sublease Value                         ($1,775,889)             $627,994        $627,994        $627,994          $627,994          $627,994
     Utility Savings                                                  $42,109         $42,952         $43,811           $44,687           $45,581
     custodial savings                                                $42,275         $42,275         $42,275           $42,275           $42,275
     Leases Expiring After 10/1/2010
     Sublease Value                         ($4,299,690)         $1,520,465          $282,850        $268,153          $215,461          $125,496              $67,332                $0
     Utility Savings                                                 $101,953         $19,346         $18,707           $15,332            $9,109               $4,985                $0
     custodial savings                                               $102,354         $19,041         $18,051           $14,504            $8,448               $4,533                $0


     Subtotal                              ($25,123,014)         $9,802,207      $8,408,545         $8,402,293        $8,352,954        $8,261,189           $7,488,913        $7,422,037         $1,855,509

     Cash Flows @ Sub Lease
     Efficiency Rate                       ($21,605,792)         $8,429,898      $7,231,349         $7,225,972        $7,183,540        $7,104,622           $6,440,465        $6,382,952         $1,595,738
     Discounted at USPS cost of
     borrowing                             ($21,605,792)         $8,144,828      $6,750,541         $6,517,412        $6,260,040        $5,981,901           $5,239,322        $5,016,942         $1,211,821
                                                                                                                                                                                               

                                                                                                                                                                                               

                                                                           Net
                                                                               Present
                                                                                       Value:  $23,517,019
                                                                                                                                                                                       


                         Build-Out Costs SF                                 $53.56                        Utilities Savings SF per Year                                $1.27
                         Lease Savings SF per Year                          $18.94                        Utility Cost Escalation Rate                                 2.0%
                         USPS Cost of Borrowing                             3.5%                          Custodial Rate SF                                            $2.55
                         Sub-lease Efficiency Rate                          86%

                                                               Assumption: **Weighted Average Lease Years = 7.3



                                                                                                 14
                                                                                       Restricted Information
Facility Optimization: Chicago District                                                    DA-AR-10-009



 
Value Assigned to Excess Space
The lease cost per square foot for the Chicago District is $18.94. Using Facility
Inventory Reports from the eFMS, we calculated this figure by dividing total interior
square footage by total lease costs. The value is below $26.79,12 the average square
foot cost for leasing commercial retail space in Chicago.

Utility Costs Associated with Excess Space
The utility cost per square foot for the Chicago District is $1.27, with a cost escalation
rate of 2 percent. Using the Financial Performance Report (FPR), Line 42, we
calculated this figure by dividing total annual utility expenses for FY 2009 by the
district’s total interior square footage.

Maintenance Costs Associated with Excess Space
The maintenance cost per square foot for the Chicago District is $2.55. We calculated
this figure by dividing the total annual maintenance expenses13 (FY 2009) by the
district’s total interior square footage. However, we reduced the cost by 50 percent
based on previously identified savings in a custodial maintenance audit.14

Build-Out Costs Associated with Implementing Optimization Actions
The build-out cost per square foot for the Chicago District is $53.56. We calculated this
figure by dividing the “build-out/Line 63 capital” costs for all approved optimization node
studies in the Great Lakes Area by the total reduction in square footage identified in the
approved node studies.

Ownership of Facility and Term Years
We categorized all facilities within the district by ownership – leased versus Postal
Service-owned. We further grouped the leased properties by the number of term years
remaining in the lease.

We calculated leases expiring before the end of FY 2010 based on the assumption the
leases would be renewed for the standard 5-year period. We calculated leases expiring
after October 1, 2010 for the remaining lease term; and calculated Postal Service-
owned facilities over a period of 7.3 years, which was the historical national average
lease term.

Sublease Efficiency Rate
We obtained the national commercial property vacancy rate of 14 percent from the
National Realty Association for industrial and retail space. As such, we reduced the net
present value savings realization to an 86 percent “success rate.”




12 At realtor.com comparable private sector commercial retail properties were analyzed to determine average square
foot costs.
13
   eFlash (Labor Distribution Code 38, Salary and Benefits) + FPR, Line 3F, Contract Cleaners Costs
14
   Custodial Maintenance Audit Report, (Report Number DA-AR-09-011, dated August 13, 2009).
                                                         15
                                               Restricted Information
Facility Optimization: Chicago District                                               DA-AR-10-009



                                APPENDIX D: FACILITIES VISITED

                                                                          Earned        Square     Potential
                                                             Interior     Building      Feet in     Excess
                                          Type of Facility   Square      Size From     Approved     Square
               Facility Name
                                                             Footage       Matrix     Node Study   Footage

CARDISS COLLINS P& DC                          Plant          987,295       10,000                    31,381

CHICAGO CENT CARRIER ANNEX                Carrier Annex       231,000       25,000       206,000     206,000

LOOP STATION                                  Station          91,866       26,500                    65,366

FORT DEARBORN                                 Station          50,896       25,000                    25,896

PILSEN                                        Station          17,026       10,000                     7,026

STOCKYARD                                     Station          47,548       10,000                    37,548

SOUTHWEST CARRIER ANNEX                   Carrier Annex        42,177       20,900                    21,277

HARWOOD HEIGHTS CARRIER ANNNEX            Carrier Annex        28,485       11,000                    17,485

ROGERS PARK                                   Station          26,442       15,000                    11,442

EDGEBK/LINCOLNWOOD ANNEX                  Carrier Annex        25,756       11,000                    14,756

UPTOWN                                        Station          24,930       14,500                    10,430

AUBURN PARK                                   Station          24,839       15,000                     9,839

NORTHTOWN                                     Station          23,633       16,000                     7,633

ENGLEWOOD                                     Station          23,051         6,500                   16,551

ROGER P. MC AULIFFE                           Station          20,182       14,000                     6,182

JACKSON PARK                                  Station          19,024       10,000                     9,024

RAVENSWOOD                                    Station          16,904       10,000                     6,904

ONTARIO STREET                               Finance           15,830         3,000                   12,830

NORWOOD PARK                                  Station          12,826         8,500                    4,326

CHICAGO LAWN                                 Finance           12,207         2,000                   10,207

OGDEN PARK                                    Station          11,915         8,000                    3,915

HARWOOD HEIGHTS                              Finance           10,790         3,000                    7,790

ASHBURN                                       Station          10,752         7,400                    3,352

AMC OHARE FINANCE                            Finance            8,500         2,000                    6,500

MERCHANDISE MART                              Station           6,799         2,700                    4,099

AMOCO POSTAL STORE                           Finance            5,555         2,000                    3,555

HAYMARKET                                    Finance            5,115         2,000                    3,115

FINANCE STATION E                            Finance            3,732         3,000                      732

EDGEBROOK FINANCE                            Finance            3,588          900                     2,688

ELSDON                                       Finance            2,245         2,000                            0

FINANCE STATION M                            Finance            1,479          700                             0

JOHN HANCOCK                                 Finance              390          500                             0

                  Totals                                     1,812,777     298,100       206,000     567,849




                                                        16
Facility Optimization: Chicago District                      DA-AR-10-009



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                          17
Facility Optimization: Chicago District        DA-AR-10-009




                                          18
Facility Optimization: Chicago District        DA-AR-10-009




                                          19
Facility Optimization: Chicago District        DA-AR-10-009




                                          20
Facility Optimization: Chicago District        DA-AR-10-009




                                          21
Facility Optimization: Chicago District        DA-AR-10-009




                                          22
Facility Optimization: Chicago District        DA-AR-10-009




                                          23
